Audit
Report
          MILITARY HEALTH SYSTEM OPTIMIZATION PLAN



Report No. D-2002-034                       December 31, 2001




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, visit the Inspector General, DoD,
Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




    Acronyms
    AFB                   Air Force Base
    AMC                   Army Medical Center
    ASD(HA)               Assistant Secretary of Defense (Health Affairs)
    DRG                   Diagnostic-Related Group
    MEDCEN                Medical Center
    MEPRS                 Medical Expense Performance and Reporting System
    MHS                   Military Health System
    MTF                   Military Treatment Facility
    PCM                   Primary Care Manager
    TMA                   TRICARE Management Activity
                              Office of the Inspector General, DoD
Report No. D-2002-034                                                           December 31, 2001
      (Project No. D2001LF-0043)

                        Military Health System Optimization Plan

                                         Executive Summary

Introduction. The Principal Deputy Assistant Secretary of Defense (Health Affairs)
and the Director, TRICARE Management Activity, in conjunction with the Deputy
Surgeons General, created and staffed the Military Health System Reengineering
Coordination Team. The team was created to support development of a comprehensive
and integrated health services delivery system. Facility optimization became the central
focus of the Military Health System reengineering effort. The approach included
developing a tri-Service readiness model to determine minimum staffing levels,
distribution of staffing based on Military Department models and priorities, and
development of a tri-Service enrollment model that would optimize enrollment and
maximize services performed by the military treatment facility. The purpose of the
Military Health System Optimization Plan is twofold: realign the staffing and resource
allocation with the mission of the Military Health System, and optimize the
effectiveness and cost efficiency of staffing and resources to deliver health care for the
maximum number of beneficiaries. The Military Health System Optimization Plan, in
concept, would improve the efficiency of the Military Health System.

Objectives. Our objective was to evaluate the Military Health System Optimization
Plan and the distribution and sharing of health care resources in catchment areas,* in
medical regions, and among Military Departments. Because it was in the early
implementation phase, the Optimization Plan had not been in place sufficient time for
management controls to be evaluated.
Results. The Optimization Plan was focused at the military treatment facility level and
may not meet its stated objectives. In addition, the Military Departments have not
consistently implemented the Optimization Plan. Without a Military Health
System-wide approach to personnel allocation, maximum efficiency and productivity of
medical personnel during peacetime may not be achieved. See the Finding section for a
discussion of the audit results.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Personnel and Readiness in conjunction with the Assistant Secretary of Defense
(Health Affairs) determine the best Military Health System organizational structure for
implementing a Military Health System-wide focused personnel distribution process.

*
    A catchment area is defined as an approximate 40-mile radius from a military treatment facility.
We also recommend they revise the Optimization Plan to include a Military Health
System-wide methodology for allocating medical personnel during peacetime,
regardless of Military Department affiliation, to achieve maximum efficiency and
productivity, and establish metrics for measuring the effectiveness and efficiency of
Military Health System staffing and resources, and for measuring the success of the
Optimization Plan.

Management Comments. The Assistant Secretary of Defense (Health Affairs),
responding for DoD, concurred with the recommendations but emphasized that DoD,
the TRICARE Management Activity, and the Military Departments will establish a
forum to formally collaborate and seek opportunities to share available medical staffing.
In addition, the Optimization Plan will be updated to support development of a
tri-Service methodology to ensure that medical assets are considered on a local,
regional, and national level for the distribution of military provider assets. The
methodology must acknowledge the individual Service readiness and operational
requirements and, once those requirements are met, other considerations may drive an
optimal distribution plan. DoD is moving towards adopting the relative value unit as a
weighted work measure of complexity and costs for episodes of outpatient care. The
Military Health System Metrics Standardization Configuration Board, which has
representatives from the three Military Departments, will determine the standard
method for calculating the measure in the Military Health System. In addition, the
tri-Service Metrics Workgroup is charged with establishing appropriate metrics for
determining success in meeting all of the Military Health System optimization goals.

The Army, Navy, and Air Force also provided comments regarding the need for
changes to the Military Health System organizational structure. However, all stated
that Service-unique operational and readiness requirements need to be the primary
consideration for staffing decisions. The Military Department comments regarding a
tri-Service methodology ranged from the acceptance of the current ad hoc process to a
better distribution plan with improved collaboration and cooperation that will better
execute the Optimization Plan. The Military Departments agreed with the
recommendation to establish Military Health System metrics, and the Air Force added
that integration among the metric workgroups needs to take place to arrive at standard
metrics. See the Finding section for a discussion of management comments and the
Management Comments section for the complete text of the comments.

Audit Response. The Assistant Secretary of Defense (Health Affairs) comments were
fully responsive and no additional comments are required. Establishment of a forum
whereby the Military Departments can collaborate on sharing medical staffing satisfies
the intent of the recommendation. We state in the report that readiness requirements
are Military Department specific and are the initial consideration when allocating health
care providers. The development and implementation of a tri-Service methodology to
allocate medical providers would not exclude Service-unique readiness and operational
requirements but add a mechanism to enhance sharing of medical personnel to address
peacetime medical requirements.




                                            ii
Table of Contents

Executive Summary                                       i


Introduction
     Background                                         1
     Objectives                                         2

Finding
     Military Health System Optimization                3

Appendixes
     A. Audit Process
         Scope and Methodology                         15
         Management Control Program Review             16
         Prior Coverage                                16
     B. TRICARE Region 11 Initiatives                  17
     C. Report Distribution                            18

Management Comments
     Assistant Secretary of Defense (Health Affairs)   21
     Department of the Army                            24
     Department of the Navy                            26
     Department of the Air Force                       29
Background
    Responsibilities. DoD Directive 5136.1, “Assistant Secretary of Defense for
    Health Affairs (ASD[HA]),” May 27, 1994, states that the ASD(HA) is
    responsible for effective execution of the DoD medical mission. To carry out
    that mission, the ASD(HA) is required to exercise authority, direction, and
    control over the medical personnel, facilities, program funding, and other
    resources within the DoD. ASD(HA) responsibility includes serving as the
    program manager for the DoD health and medical resources. Consistent with
    applicable laws, funding for the DoD medical program, including operation and
    maintenance, procurement, and the Civilian Health and Medical Program of the
    Uniformed Services, shall be included in a single Defense medical
    appropriations account. However, ASD(HA) control over medical personnel is
    limited by law. Funds for active and reserve medical military personnel are
    excluded from the single Defense medical appropriations account. Additionally,
    ASD(HA) may not direct a change in the structure of the chain of command
    within a Military Department with respect to medical personnel and may not
    direct a change in the structure of the chain of command with respect to medical
    personnel assigned to that command.

    DoD Directive 5136.12, “TRICARE Management Activity (TMA),” May 31,
    2001, states that the TMA was established as a DoD Field Activity of the Under
    Secretary of Defense for Personnel and Readiness and operates under the
    authority, direction, and control of the ASD(HA). TMA began operation in
    February 1998 with a mission that includes managing TRICARE along with
    managing and executing the Defense Health Program Appropriation and DoD
    Unified Medical Program.

    Optimization Plan. The Principal Deputy ASD(HA) and the Director, TMA,
    in conjunction with the Deputy Surgeons General, created and staffed the
    Military Health System (MHS) Reengineering Coordination Team. The team
    was created to support development of a comprehensive and integrated health
    services delivery system. At the outset, 29 initiatives were identified that would
    further the effort to create a benchmark health services delivery system and an
    executable funding program. Facility optimization became the central focus of
    the reengineering effort, and the team has since been renamed the MHS
    Optimization Team.

    The purpose of the MHS Optimization Plan (the Optimization Plan) is twofold:
    realign the staffing and resource allocation with the mission of the MHS, and
    optimize the effectiveness and cost efficiency of staffing and resources to deliver
    health care for the maximum number of beneficiaries. On December 3, 1999,
    ASD(HA) issued the initial optimization policy requiring that each military
    treatment facility (MTF) assign enrollees to a specific Primary Care Manager
    (PCM) by the end of September 2000. Assigning enrollees to a PCM was the
    first in a series of fundamental steps for implementing the Optimization Plan.
    Additional steps included standardizing the appointment process and health
    evaluation assessment reviews. On March 6, 2000, ASD(HA) issued a




                                         1
            tri-Service enrollment capacity planning model. The model established a goal of
            1,500 enrollees for each PCM. The purpose of the goal was to improve
            productivity and cost efficiency of health care delivery.

            Medical Expense Reporting. In 1974 and 1976, the House Appropriations
            Committee recommended that DoD develop and use uniform standards in
            determining medical manpower requirements. Congress wanted to be able to
            compare medical manpower determinants and costs of the Military Departments.
            In conjunction with the Military Department medical comptrollers and resource
            managers, the office of the ASD(HA) subsequently developed the Medical
            Expense Performance and Reporting System (MEPRS) and issued
            DoD 6010.13-M, “Medical Expense Performance and Reporting System for
            Fixed Military Medical and Dental Treatment Facilities,” in FY 1985. The
            reporting system was initiated during the first quarter of FY 1986. The MEPRS
            Manual provides a detailed uniform chart of accounts along with implementing
            guidance and mandates that the MTFs implement MEPRS.

            In MEPRS, each outpatient and inpatient clinical specialty is identified as a
            separate cost center (for example, cardiology, orthopedics, and pediatrics) and
            the total cost and workload are captured by cost center. MEPRS does not
            provide a detailed cost per outpatient procedure but does provide an average
            cost per visit for the various MTF outpatient clinics. A diagnostic-related group
            (DRG) classification is assigned to each inpatient stay. MTFs and civilian
            hospitals use the same DRG classifications. Each DRG is assigned a case mix
            index (weighted number) by the Centers for Medicare and Medicaid Services
            (formerly the Health Care Financing Administration) that reflects the average
            resource consumption, such as length of stay and complexity of care, associated
            with the DRG. The case mix index ranges from 0.0000 to 23.0015. As an
            example, DRG number 391, “normal newborn,” has a case mix index of
            0.1088, and DRG number 103, “heart transplant,” has a case mix index of
            22.4925. Dividing the total cost per clinical specialty by the total of the case
            mix indexes provides a cost per inpatient work unit commonly referred to as the
            cost per relative weighted product. The Finding section of this report discusses
            the variation in the inpatient relative weighted costs and outpatient visit costs of
            Medical Centers.

Objectives
            Our overall objective was to evaluate the MHS Optimization Plan and
            distribution and sharing of health care resources in catchment areas,1 in medical
            regions, and among Military Departments. Because it was in the early
            implementation phase, the Optimization Plan had not been in place sufficient
            time for management controls to be evaluated. See Appendix A for a discussion
            of the audit scope, methodology, and prior coverage.




1
    A catchment area is defined as an approximate 40-mile radius from a military treatment facility.



                                                       2
           Military Health System Optimization
           Although the Optimization Plan, in concept, could improve MHS
           efficiency, the Optimization Plan is focused at the MTF level and may
           not meet its stated objectives. In addition, the Military Departments
           have not consistently implemented the Optimization Plan. DoD can
           improve MHS optimization by revising the Optimization Plan to:

           •   include an MHS–wide method for allocating medical personnel
               during peacetime regardless of Military Department affiliation, and

           •   establish productivity and efficiency metrics that will assist in
               allocating medical personnel and measuring the success of the
               Optimization Plan.

           Without an MHS-wide approach to personnel allocation, maximum
           efficiency and productivity of medical personnel during peacetime may
           not be achieved.

Improving MHS Efficiency
    The Optimization Plan, in concept, could improve MHS efficiency but may not
    meet its stated objectives to realign both the staffing and resource allocation with
    the mission of the MHS and optimize the effectiveness and efficiency of the
    resultant staffing and resources. In addition, the Military Departments have not
    consistently implemented the Optimization Plan. Recognizing the need to
    improve efficiency and productivity, the MHS Optimization Team developed the
    Optimization Plan. The Optimization Plan required development of a
    tri-Service readiness model to determine minimum staffing levels, distribution of
    staffing based on Military Department models and priorities, and development
    of a tri-Service enrollment model that would optimize enrollment and maximize
    services performed by the MTF. A tri-Service readiness model was not
    developed. Conceptually, the Optimization Plan accepted the existing
    independent methodologies each Military Department uses for allocating health
    care personnel during peacetime and focused on optimizing resources already
    assigned to the MTF. We believe the MHS would be better served had an
    MHS-wide methodology been developed that addressed readiness requirements
    and allocation of resources before attempting to optimize the MTF. By
    optimizing resources already allocated to an MTF, a risk exists that additional
    resources could be expended to optimize resources that may not have been
    properly allocated.

    Optimization Policy. On March 6, 2000, ASD(HA) issued “Policy To
    Improve MTF Primary Care Manager Enrollment Capacity,” which outlines the
    Optimization Plan goals for PCMs. A PCM is a physician or other medical
    professional who coordinates a patient’s care and can refer patients to
    specialists, if needed. Individual PCMs are typically family practitioners,




                                         3
internists, pediatricians, and general practitioners. TRICARE Region 11
[Northwest Region] was selected as the demonstration region for the
Optimization Plan.

ASD(HA) contracted with a civilian health care firm to review MTFs in
TRICARE Region 11 and to identify opportunities for improving the efficiency
and productivity in the outpatient Primary Care Clinics.

The Optimization Plan establishes an aggregate enrollment goal of 1,500
beneficiaries for each PCM and is not specific at which level (Military
Department, MTF, or clinic) the aggregate enrollment goal should be applied.
The Air Force issued guidance requiring the enrollment goal to be applied at the
MTF level. The Army and Navy had not issued specific guidance in that area,
but the Army and Navy MTFs we visited considered applying the PCM
enrollment goal at the MTF level as appropriate. To assist MTFs in achieving
the enrollment goal, the Optimization Plan sets forth targets of 3.5 support staff,
2 exam rooms, and 25 visits a day for each PCM. The Optimization Plan may
not accomplish the stated objectives to realign the staffing and resource
allocation with the mission of the MHS and to optimize the effectiveness and
efficiency of the resultant staffing and resources. If too many PCMs are
assigned to the MTF, the Optimization Plan may compound the error by adding
additional staffing and exam rooms that would be underutilized. Conversely, if
too few PCMs are assigned to the MTF, the PCMs may not be able to meet the
workload demands even if additional staff and exam rooms are provided.

Medical Center Cost Variances. We reviewed the DoD Medical Center
(MEDCEN) MEPRS inpatient and outpatient cost and workload data for
FY 1998 through FY 2000 for seven high-volume clinical specialties:
cardiology, family practice, general surgery, gynecology, internal medicine,
obstetrics, and orthopedics. The wide variation in the MEDCEN cost for
providing health care points out the need to improve the efficiency of peacetime
care. Readiness requirements should be the primary consideration in
establishing a minimum requirement for the number and mix of medical
personnel. However, allocation decisions for resources above readiness
requirements should be based on maximizing the efficiency of the MHS. Based
on MEPRS data, the cost of providing similar health care appears to vary
considerably among MTFs. Because personnel costs comprise more than
one-half of the total MTF operating costs, we believe much of the difference in
cost is attributable to the variation in the staff to the workload ratio. We did not
perform a detailed review of individual MTF records to verify how much of the
cost variation was attributable to an imbalance in the staff to the workload ratio.
Following is a discussion of the variation in MEDCEN-reported inpatient and
outpatient costs.

       Inpatient Care. Significant variations exist in inpatient workload costs.
We believe that the variations are attributable in part to a variation in workload
and case complexity. However, comparison of the relative weighted product
costs within each clinical specialty disclosed significant cost variations among
MEDCENs with similar workload and case complexity. Some examples of the
most significant cost variations are shown in Table 1.



                                     4
           Table 1. MEPRS FY 2000 Inpatient Workload and Cost Data

                                             Episodes of
                                                Care         Case Mix Cost per Relative
                                            (dispositions)    Index   Weighted Product

Internal Medicine

    Walter Reed1, 7                            1,638          1.3357       $17,168
    81st Medical Group2, 7                     1,339          1.3440       $ 5,347


Cardiology

    William Beaumont3                            395          1.3977       $ 8,296
    60th Medical Group4                           81          1.4098       $24,131


Obstetrics

    Madigan5, 7                                1,760          0.5623       $ 6,512
    National Naval Medical Center6, 7          1,930          0.5633       $14,431


1
  Walter Reed Army Medical Center (AMC) Washington, D.C.
2
  Keesler Air Force Base (AFB), Mississippi
3
  William Beaumont AMC, Texas
4
  Travis AFB, California
5
  Madigan AMC, Washington
6
  National Naval Medical Center, Maryland
7
  Graduate Medical Education program



        Outpatient Care. The complexity of ambulatory care varies
significantly between small stand-alone outpatient clinics and outpatient clinics
at large MTFs. As a result, the costs could vary significantly. Comparison of
FY 1998 through FY 2000 visit costs for seven clinics common to most
MEDCENs disclosed that MEDCENs are experiencing significant variation in
outpatient visit costs. Examples of the variation in the cost for a MEDCEN
outpatient clinical visit are shown in Table 2.




                                        5
         Table 2. MEPRS FY 2000 Outpatient Workload and Cost Data

                                             Number of
                                               Visits          Cost Per Visit
Internal Medicine
    William Beaumont1, 8                      38,980              $214.33
    Walter Reed2, 8                           40,499              $368.24
    59th Medical Wing3, 8                     31,026              $422.86


Cardiology
    William Beaumont1                         11,609              $129.54
    Naval Medical Center San Diego4, 8        11,456              $306.21
    Walter Reed2, 8                           14,913              $520.67


Family Practice
    Naval Medical Center Portsmouth5          25,879              $187.34
    60th Medical Group6, 8                    45,503              $207.14
    375th Medical Group7, 8                   17,218              $303.23

1
  William Beaumont Army Medical Center (AMC), Texas
2
  Walter Reed AMC, Washington, D.C
3
  Lackland Air Force Base (AFB), Texas
4
  San Diego, California
5
  Portsmouth, Virginia
6
  Travis AFB, California
7
  Scott AFB, Illinois
8
  Graduate Medical Education program


    We realize that part of the variation in visit cost shown above may be
    attributable to variations in the acuity and complexity of outpatient visits.
    Because personnel costs make up more than one-half of the total MTF operating
    cost, we believe a portion of the difference may be attributable to an imbalance
    between staffing and workload.

    Inconsistent Implementation. Implementation of the Optimization Plan by the
    Military Departments was inconsistent. To improve the productivity and cost
    efficiency of health care delivery, the ASD(HA) issued direction that required
    the lead agent of TRICARE Region 11 to implement the lead agent Pilot Project
    (Pilot Project) in conjunction with the Optimization Plan beginning
    October 1, 2000. Conceptually, each effort could improve the efficiency of
    health care delivery. However, even if fully implemented, neither the



                                         6
Optimization Plan nor the Pilot Project will provide the optimum location and
combination of physician specialties needed to optimize TRICARE Region 11
and the overall MHS.

We visited five MTFs in TRICARE Region 11 during March 2001 to determine
the status of the Optimization Plan implementation. Each MTF provided a
presentation of ongoing optimization efforts, and as discussed in Appendix B,
many ongoing localized efforts were outside of the Optimization Plan.
Inconsistency existed in the implementation of the Optimization Plan PCM goals
between the MTFs visited and their respective medical chains of command. In
addition, considerable variation existed between MTFs in the enrollment for
PCMs working in the same clinical specialty. Details are provided in Table 3,
along with a discussion of the variation in each military medical department
position and status in implementing the Optimization Plan.



              Table 3. Enrollee Data in TRICARE Region 11 by MTF
                             As of February 28, 2001


                                                         Average Enrollees
                       Facility                              per PCM

          Madigan1                                             1,042

          Naval Hospital Bremerton2                              769

          Naval Hospital Oak Harbor3                             850

          92nd Medical Group4                                  1,244

          62nd Medical Group5                                  1,428

          1
            Madigan Army Medical Center, Washington
          2
            Bremerton Naval Air Station, Washington
          3
            Oak Harbor Naval Air Station, Washington
          4
            Fairchild Air Force Base (AFB), Washington
          5
            McChord AFB, Washington




        Army. Madigan Army Medical Center (AMC), Tacoma, Washington,
personnel stated that they had not begun to incorporate the Optimization Plan
into their clinic operations and the optimization efforts completed thus far at
Madigan were locally initiated efforts. Madigan personnel further stated that
because of the complexity of the primary care visits at Madigan and lack of
support staff, it is not realistic to expect Madigan to achieve the Optimization
Plan enrollment goals. The Commanding Officer pointed out that Madigan had


                                       7
lost 371 personnel in the last 6 years and did not have sufficient support staff to
implement the Optimization Plan. The primary loss has been in registered
nurses and licensed practical nurses, while the physician strength has remained
essentially the same. Further discussion with staff personnel disclosed that
Madigan is also experiencing significant support staff shortages in the intensive
care unit, the operating room, anesthesiology, and inpatient medical surgery.

Discussion with the Army Medical Command officials disclosed the shortage of
medical support staff is prevalent throughout the Army, and as a result, the
Army has not begun to implement the Optimization Plan. The Army Medical
Command identified its needs in a draft plan that agrees with the Optimization
Plan goals, but states implementation of the Optimization Plan will require an
additional $43 million of funding annually to procure support staff and a
one-time funding of $27 million for exam room construction.

        Navy. Bureau of Medicine and Surgery personnel stated that they are
working to achieve the performance goals in the Optimization Plan, but have not
issued specific direction to MTFs regarding implementation of the Optimization
Plan. Instead, the Bureau of Medicine and Surgery has focused on providing
MTFs with information and tools that can be used to assist MTFs to optimize
performance. Bureau of Medicine and Surgery personnel also stated that PCMs
perform too many non-patient care duties to meet the Optimization Plan PCM
goals. PCMs in the Navy average only 1.31 support personnel and 1.29 exam
rooms. The Bureau of Medicine and Surgery is attempting to increase the
amount of support staff per PCM to make more time available for PCMs to treat
patients. The Navy is in the beginning stages of attempting to re-allocate
support staff on the basis of performance expectations.

Table 3 shows that the PCM beneficiary enrollment at the two Navy sites we
visited was significantly below the Optimization Plan goal of 1,500.
Discussions with Naval Hospital Bremerton, Washington, and Naval Hospital
Oak Harbor, Washington, personnel disclosed that they did not agree with the
performance goals in the Optimization Plan. Each site developed its own PCM
model. Naval Hospital Bremerton determined its average enrollment for each
PCM was 769, and that its PCMs would have to work an 82-hour week to
achieve the Optimization Plan goal of 1,500 enrollees for each PCM. Naval
Hospital Oak Harbor determined that the maximum enrollment it could achieve
was 950 for each PCM.

Personnel at Naval Hospital Bremerton and Naval Hospital Oak Harbor stated
that the Optimization Plan did not fully consider real world variables that affect
the enrollee-provider goal. For example, the Optimization Plan did not contain
an accurate measure of how much time each physician spent on non-patient care
functions. Non-patient care functions include residency training and
administrative duties such as data entry. Personnel at Naval Hospital Bremerton
developed a model to determine the amount of time that the medical staff spends
on non-patient care functions. Based on the Naval Hospital Bremerton model,
approximately 40 percent of PCM time is spent on non-patient care functions.
The Naval Hospital Bremerton model showed that the PCM enrollment capacity
could be increased to 1,573 if the PCM non-patient time were reduced from
40 percent to 10 percent. However, Naval Hospital Bremerton personnel noted


                                     8
that many of the factors that impact PCM non-patient care time, such as
residency training, are beyond MTF control. The Naval Hospital Bremerton
model also pointed out that the lack of support staff and operating space
negatively impacted command ability to work efficiently. The average support
staff for Naval Hospital Bremerton PCMs in February 2001 was 1.24, a figure
significantly below the Optimization Plan’s PCM support staff target of 3.5.

        Air Force. Despite the emphasis and contractor support provided in
TRICARE Region 11, only the McChord AFB, Tacoma, Washington, Clinic
was close to meeting the Optimization Plan goal of 1,500 enrollees for each
PCM. To meet the MHS Optimization Plan goal for PCMs, McChord Clinic
personnel stated that they reduced the number of PCMs from 10 to 7 and
increased the visits for each PCM from 10 to 12 a day to 24 to 25 a day.
Fairchild AFB, Spokane, Washington, Clinic personnel indicated that they
planned to achieve the enrollment goal of 1,500 per PCM by exceeding 1,500
enrollees for Family Practice and Pediatrics and increasing Internal Medicine
enrollees to 1,000. To achieve the goal, Fairchild Clinic personnel performed a
business case analysis. Based on that analysis, the Fairchild Clinic closed its
Ambulatory Surgery Unit in March 2001. The closure of the unit resulted in
realigning 11 enlisted personnel, 1 civilian employee, and 2 officers locally to
fill support staff positions. The closure of the Ambulatory Surgery Unit also
resulted in the transfer of five officers to other Air Force MTFs, which the
Fairchild Clinic estimated would save $332,140 annually. Although the
ambulatory clinic closed, the Fairchild Clinic maintained two ambulatory
surgeons on staff who will continue to perform ambulatory surgeries on military
personnel using civilian facilities and support staff. The use of civilian facilities
will enable the surgeons to maintain their skills and satisfy most of the local
demand for ambulatory surgery. It is important to note that both of the Air
Force Clinics went beyond optimizing existing staff. Each clinic made tough
decisions to reduce the staff to what was needed to cost effectively and
efficiently satisfy existing workload. That type of optimization approach should
be incorporated into the plan and applied on an MHS-wide basis.

Review of the Air Force Surgeon General web site and discussions with the
McChord and Fairchild Clinics disclosed that the Air Force originated the
Optimization Plan PCM enrollment goals. In addition, the Air Force has
required MTFs to work toward meeting the goals for more than 2 years and to
prepare monthly reports that show the status in meeting the Optimization Plan
goals. Since March 1, 2000, the Air Force MTFs report by way of an
interactive web site and visibility is available to anyone with access to the site.
Although many MTFs still have not achieved the goals, we believe the Air
Force Surgeon General’s support and monitoring of the goal will result in
improvement in this area.

Lead Agent Pilot Test. TMA realized that to satisfy health care demand more
cost effectively, increased regional control over health care resources was
needed. On October 1, 2000, the TMA began a 2-year project to evaluate the
role of a strengthened lead agent in the regional management of the MHS. Lead
agent responsibilities were expanded to include developing innovative practices
that optimize regional resources along with developing a regional plan for
managing MHS regional resources and implementing the tenets of population


                                      9
     health. We applaud this effort, however, implementation of the regional plan
     with respect to reallocating MTF funding and personnel, was voluntary because
     the TMA did not have the authority to empower the lead agent with the
     authority to direct changes in those areas.

     Discussion with the TRICARE Region 11 lead agent staff disclosed that they
     were not reviewing the MTF PCM workloads to identify PCM excesses and
     shortages because under the Pilot Project the lead agent did not have the
     authority to shift personnel between the Military Departments. The lead agent
     stressed the need to centralize personnel distribution and that savings could be
     realized through increased sharing and redistribution of medical personnel to
     match skills and supply with demand. As discussed previously, under the MHS
     organization, each Military Department independently allocates medical
     personnel within their respective chains of command. No incentives,
     methodology for identifying opportunities, or requirements exist for the Military
     Departments to share health care resources.

     The lead agent developed a conceptual plan for implementing the Pilot Project.
     The plan states that centralizing the management of funds and personnel at the
     regional level would provide the lead agent with total asset visibility for MHS
     expenditures. Centralized management would allow the lead agent to make the
     appropriate adjustment for market surpluses and deficits in the purchased care.
     In addition, the lead agent could shift personnel between MTFs to better match
     regional skills to regional needs. We agree and believe that even greater
     savings could be gained if medical funding and personnel are managed on a
     DoD-wide integrated basis. Limited sharing of physicians between MTFs has
     been ongoing for years on an informal basis (see discussion of the circuit riders
     and Surgical Care Optimization/Realignment Team in Appendix B). No
     ongoing efforts are present at the regional or DoD level to match peacetime
     health care requirements to the MHS capabilities disregarding the Military
     Department affiliation of medical personnel and medical funds. The following
     sections discuss the need for an MHS-wide methodology for allocating
     personnel and the importance of establishing appropriate metrics for measuring
     productivity throughout the MHS. The metrics would identify cost and
     productivity saving opportunities through increased performance and sharing of
     health care personnel among Military Departments.

Allocation of Health Care Providers
     DoD lacks a comprehensive method for allocating medical personnel across the
     MHS to meet the health care peacetime requirements. Each Military
     Department allocates health care providers to its MTFs using a Military
     Department-unique model. Although some sharing of resources among Military
     Departments takes place at the MTF level through informal arrangements, total
     MHS requirements are not considered when resources are allocated to the
     MTFs. Without an analysis that identifies DoD-wide solutions to total health
     care requirements, the most cost-effective distribution of health care providers
     for peacetime health care will not be realized. Physician skills are also
     enhanced when they are more fully utilized.



                                         10
     Readiness requirements are Military Department specific and are the initial
     consideration when allocating health care providers. To determine MTF
     peacetime health care provider requirements, the Air Force uses an automated
     model based on population. The Army also has an automated model that uses
     workload to determine the number of health care providers required for each
     MTF. The Navy determines MTF peacetime health care requirements by
     performing onsite reviews, which include analysis of workload data, and
     applying staffing standards. Because the peacetime health care mission is not
     Military Department dependent, cost effectiveness and increased productivity
     should be a key determinate for peacetime medical assignments. We believe a
     comprehensive tri-Service method for allocating medical personnel across the
     MHS would enable DoD to improve the productivity and cost effectiveness of
     peacetime health care delivery.

     Informal arrangements among nearby MTFs to share personnel were developed
     in the absence of an integrated MHS-wide approach to match requirements with
     assets across Military Department lines. In TRICARE Region 11, a circuit
     rider initiative was developed to prevent workload from going to civilian
     providers by sharing military physicians between MTFs within the region. We
     found that the sharing was minimal and confined to sharing one physician with
     three MTFs. We applaud the attempt at crossing Military Department lines to
     improve cost efficiency at the local level. To truly optimize the MHS for the
     peacetime health care mission, a methodology for distributing DoD healthcare
     personnel regardless of Military Department affiliation should be standardized
     and expanded across the MHS.

Productivity and Efficiency Metrics
     Productivity and efficiency metrics have not been developed to assist in
     allocating medical personnel or to measure the success of optimization efforts.
     The only measure included in the Optimization Plan is the goal of 1,500
     enrollees for each PCM. Many MHS metrics exist that measure the quality of
     health care delivery and beneficiary wellness. In addition, the MHS captures
     and maintains extensive cost and workload data. No criteria has been applied to
     the data that establish productivity metrics for measuring the cost efficiency and
     productivity of the MHS. An absence of uniform productivity metrics prevents
     comparison of health care delivery between MTFs, as well as the civilian sector,
     with a goal of identifying efficient and inefficient operations. An absence of
     productivity metrics also prevents establishment of any productivity standards
     needed for allocating medical personnel on a consistent basis throughout the
     MHS.

     The Optimization Plan goal of 1,500 enrollees for each PCM was a step toward
     establishing an integrated productivity measure. However, the larger MTFs
     visited criticized the 1,500 enrollee goal because the MTFs frequently provided
     care to an older population with complex health care problems, which
     significantly reduced the number of daily visits and enrollees a PCM could
     handle. We agree that a measure that takes the complexity of care into
     consideration is necessary when establishing productivity metrics.



                                         11
    We also believe that measuring productivity in all areas of health care delivery
    is necessary. The Optimization Plan establishes goals for PCMs operating
    outpatient primary care clinics but does not establish any goals or metrics for
    physicians providing inpatient care. Inpatient care consumes more than
    20 percent of the MHS direct-care resources.

    Because MTFs do not maintain patient-level accounting records, the actual cost
    of an episode of care cannot be fully identified in the MHS. However, MEPRS
    is the only cost accounting system common to all of the MTFs and provides a
    means of comparing MTF health care costs on a cost center work unit basis.
    Although MEPRS was established so MTF costs and productivity could be
    compared, personnel throughout the MHS have stated that comparison of MTF
    MEPRS data is inappropriate because of data inaccuracies and variations in
    Military Department implementation of MEPRS.

    TMA personnel indicated that they are looking into assigning weighted factors
    to account for the acuity level of outpatient visits similar to the inpatient case
    mix indexes discussed in the background section of this report. Discussion with
    Air Force Surgeon General personnel disclosed that in April 2001, Air Force
    MTFs began reporting relative value units for outpatient visits to an Air Force
    web site to account for visit acuity. TMA personnel indicated the other Military
    Departments are considering assigning relative value units to outpatient visits.
    Assigning relative value units, or a similar weighted factor, to outpatient visits
    would be a major step toward measuring and comparing the productivity and
    cost efficiency of outpatient care between MTFs. Until TMA and the Military
    Departments agree on the methodology for assigning weighted factors to
    outpatient procedures, we believe that using MEPRS cost per MTF visit would
    provide a useful metric for measuring MTF outpatient cost efficiency.

Need for MHS Personnel Allocation Methodology
    TMA developed a PCM goal as a first step toward establishing DoD-wide
    medical performance metrics to optimize the MHS. However, the effort is
    limited because the Optimization Plan is focused on optimizing medical
    personnel where the personnel are currently assigned and does not evaluate
    where the personnel should be assigned to best serve the MHS. As a result, the
    Optimization Plan may not optimize the MHS. To fully optimize medical
    personnel, the MHS needs a personnel allocation methodology that identifies
    and takes advantage of the MHS productivity and cost efficiency opportunities.
    The Office of the ASD(HA) could facilitate a more MHS-focused approach by
    establishing MTF inpatient and outpatient clinical specialty productivity metrics
    applicable to all of the MTFs. MEPRS is a source for much of the workload
    and cost data needed for productivity metrics.

    Even with a consistent methodology, complete MHS optimization will not be
    realized until personnel allocation decisions can be made on an MHS-wide basis.
    The Under Secretary of Defense for Personnel and Readiness should determine
    the best organizational structure for implementing the allocation process. In




                                        12
    summary, we believe DoD peacetime health care could be delivered more
    effectively and efficiently if the focus of resource allocation were on optimizing
    the MHS rather than individual MTFs.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense for Personnel
    and Readiness, in conjunction with the Assistant Secretary of Defense
    (Health Affairs):

           1. Determine the best Military Health System organization structure
    for implementing a Military Health System-wide personnel distribution
    process.

    Assistant Secretary of Defense (Health Affairs) Comments. The ASD(HA),
    responding for DoD, concurred and stated that DoD, TMA, and the Military
    Departments will establish a forum to formally collaborate and seek
    opportunities to share available medical staffing.

    Military Department Comments. Although not required to comment, the
    Army stated that improving personnel distribution should be approached by an
    inter-Service working group. The Navy agreed with the recommendation and
    stated that the Service must be able to balance peacetime staff with operational
    requirements. The Air Force Surgeon General agreed in theory with the
    recommendation, but stressed that individual Service-unique requirements need
    to be considered. The Air Force Deputy Surgeon General disagreed with the
    recommendation and stated that the MHS structure does not need to change, but
    agreed that a better distribution plan with improved collaboration and
    cooperation would facilitate better execution of the Optimization Plan.

    Audit Response. Although the ASD(HA) did not address organizational
    changes, we consider the comments fully responsive. The ASD(HA) agreed to
    establish of a forum whereby the Military Departments could collaborate on the
    sharing of medical staffing. The action satisfies the intent of the
    recommendation.

           2. Revise the Military Health System Optimization Plan to:

                  a. Include a Military Health System-wide methodology for
    allocating medical personnel during peacetime, regardless of Military
    Department affiliation, to achieve maximum efficiency and productivity.

    Assistant Secretary of Defense (Health Affairs) Comments. The ASD(HA)
    concurred and stated that DoD, TMA, and the Services will update the
    Optimization Plan to support development of a tri-Service methodology to
    ensure that medical assets are considered on a local, regional, and national level
    for the distribution of MTF military provider assets. The ASD(HA) added that
    the methodology must acknowledge the individual Service readiness and


                                        13
operational requirements and, once those requirements are met, other
considerations may drive an optimal distribution plan. Considerations include
peacetime business case analysis, Graduate Medical Education or research, and
sufficient population areas to maintain adequate military provider competency
levels. Business case analysis may support the decision to fill one Service’s
need with another Service’s provider, if available, to minimize the global MHS
cost of purchased care.

Military Department Comments. The Army stated that the recommendation is
unworkable and that inter-Service cross-leveling is already established through
an ad hoc process. The Navy agreed with the recommendation and stated that
although Services should have the final placement authority, cooperative efforts
to match medical assets to population needs are feasible. The Air Force
Surgeon General agreed in theory, with the caveat that Service-unique readiness
requirements need to be considered. The Air Force Deputy Surgeon General
disagreed and stated that allocation should be based on readiness.

Audit Response. The ASD(HA) comments are fully responsive. The report
clearly states that readiness requirements are the initial consideration for staffing
decisions. We identified that although the tri-Service readiness model had not
yet been developed, facility optimization was underway. We believe the
development and implementation of a tri-Service methodology to allocate
medical providers would not exclude Service-unique readiness and operational
requirements, but add a mechanism to enhance the sharing of medical personnel
to address peacetime medical requirements. Within readiness requirements,
identifying the best location for medical providers would enhance the benefits
from optimizing the MTFs.

               b. Establish metrics, such as clinical specialty relative
weighted product costs, for measuring the effectiveness and efficiency of
Military Health System staffing and resources, and for measuring the
success of the Optimization Plan.

Assistant Secretary of Defense (Health Affairs) Comments. The ASD(HA)
concurred and stated that DoD is moving toward adopting the relative value unit
as a weighted work measure of complexity and costs for episodes of outpatient
care. The MHS Metrics Standardization Configuration Board, which has
representatives from the three Services, will determine the standard method for
calculating the measure in the MHS. Also, the Tri-Service Metrics Workgroup
is charged with determining appropriate metrics for determining success in
meeting all MHS Optimization goals.

Military Department Comments. The Army and Navy agreed that common
metrics are needed for meaningful comparisons across DoD. The Air Force
Surgeon General and Deputy Surgeon General agreed with the recommendation
but stated that integration among various metric workgroups needs to take place
to arrive at standard tri-Service metrics.




                                     14
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The audit reviewed the MHS Optimization Plan and the
    allocation of health care providers within the MHS. We interviewed members
    of the MHS optimization team, made up of personnel from TMA and the
    Military Department Surgeons General.

    We attended Defense Medical Oversight Committee meetings and reviewed
    contractor-prepared presentations on alternative MHS organizational structures
    and alternative methods to purchase civilian health care.

    We visited the lead agent, five MTFs, and the regional managed care support
    contractor in TRICARE Region 11. We analyzed documentation applicable to
    the PCMs at the MTFs and obtained outpatient clinic appointment data. We
    also discussed and reviewed regional and MTF optimization initiatives
    developed locally. We interviewed lead agent and MTF personnel regarding the
    implementation status of the Optimization Plan and Pilot Project.

    We analyzed FY 1998 through FY 2000 MEPRS inpatient and outpatient cost
    and workload data for 7 Clinical Specialties for 16 MEDCENs.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in the DoD. This report provides coverage of the DoD
    Infrastructure Management high-risk area.

    Use of Computer-Processed Data. We did not assess the reliability of
    computer-processed data extracted from the MEPRS. We acknowledged
    management’s concern over the accuracy of the system. Accordingly, we did
    not rely extensively on MEPRS data and presented data only as a broad
    anecdotal indicator. Not assessing the reliability of the system does not affect
    the results of the audit because the finding is based on risks associated with
    policy decisions on the implementation of the Optimization Plan and not specific
    data included in the system.

    Audit Type, Dates, and Standards. We performed this program audit from
    October 2000 through August 2001 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within and outside of DoD. Further details are available on
    request.




                                       15
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that
     programs are operating as intended and to evaluate the adequacy of the controls.

     Because the Optimization Plan was in the early implementation phase, the
     Optimization Plan had not been in place sufficient time for management controls
     to be evaluated. Additionally, ASD(HA) had not defined the optimization effort
     as an assessable unit.

Prior Coverage
     During the last 5 years, the General Accounting Office issued one report
     discussing the need for a comprehensive tri-Service strategy for determining and
     allocating medical resources among MTFs. Unrestricted General Accounting
     Office reports can be accessed over the Internet at http://www.gao.gov.


General Accounting Office
     General Accounting Office Report No. HEHS-00-10, “Defense Health Care:
     Tri-Service Strategy Needed to Justify Medical Resources for Readiness and
     Peacetime Care,” November 1, 1999




                                        16
Appendix B. TRICARE Region 11 Initiatives
   The TRICARE Region 11 lead agent and many of the MTFs visited had
   initiatives that are not part of the Optimization Plan. The local initiatives were
   developed to improve operational efficiencies as well as save funds. Below are
   some examples of the local initiatives.

   Surgical Care Optimization/Realignment Team. The Surgical Care
   Optimization/Realignment Team develops opportunities to shift surgical cases
   from Madigan AMC to Naval Hospital Bremerton. The team initially focused
   on outpatient procedures that could be performed by Madigan surgeons at Naval
   Hospital Bremerton. The team identified surgical backlogs at Madigan and
   matched the medical specialties with Naval Hospital Bremerton capabilities.
   The Surgical Care Optimization/Realignment Team concluded that the greatest
   potential for recapture of funds appears to be in orthopedic surgery, especially
   for total joint replacement and arthroscopy patients. Four total joint
   replacements have been performed at Naval Hospital Bremerton on patients
   referred from Madigan that would have otherwise been sent to civilian
   providers.

   Pharmacy Incentive Agreement. This regional pharmacy initiative
   standardized the types and costs of drugs stocked at all of the pharmacies within
   the region. The TRICARE Region 11 lead agent estimated the initiative has
   resulted in savings of $38,321 in October 2000, $46,592 in November 2000,
   and $154,837 in December 2000. The lead agent projected additional savings of
   $850,000 for the remainder of FY 2001.

   Registered Nurse Triage. At the 92nd Medical Group, Fairchild AFB, a
   registered nurse answers phones calls and makes the decision whether a visit is
   needed. Many unnecessary visits are avoided because the registered nurse
   provides the patient with guidance on what the patient should do at home.

   Ambulatory Surgery Unit. Effective March 1, 2001, the 92nd Medical Group,
   Fairchild AFB, closed the Ambulatory Surgery Unit because of under
   utilization. An in-house business case analysis on closing the Ambulatory
   Surgery Unit showed projected savings of about $330,000 annually.

   Prime Health Center. Naval Hospital Oak Harbor has changed appointment
   procedures and dedicates blocks of time specifically for performing Pap-smear
   tests at the Prime Health Center. The change has improved the processing of
   patients through the clinic and the quality of appointments.

   Independent Duty Corpsmen. Naval Hospital Oak Harbor initiated efforts to
   increase operational efficiencies by having independent duty Corpsmen perform
   patient screening, freeing up time for the PCM to see more patients.

   Specialty Workload. Naval Hospital Oak Harbor initiated an effort to reduce
   referrals to civilian specialists by stressing that civilian PCMs forward referrals
   to military specialists rather than civilian specialists.


                                        17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Assistant Secretary of Defense (Health Affairs)
Comments




                    21
22
     Final Report
      Reference




     Revised




23
Department of the Army Comments




                 24
25
Department of the Navy Comments




                  26
27
28
Department of the Air Force Comments




                  29
30
31
32
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report, are listed below.

Shelton R. Young
Michael A. Joseph
Sanford W. Tomlin
G. Paul Johnson
James A. O’Connell
Mary J. Gibson
Eva M. Zahn
Lynnell E. Hines
Mary Ann Hubbell
